<html>
<title> - SMALL BUSINESS: THE KEY TO ECONOMIC GROWTH</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




 
               SMALL BUSINESS: THE KEY TO ECONOMIC GROWTH

=======================================================================

                                HEARING

                               before the

        SUBCOMMITTEE ON ECONOMIC GROWTH, TAX, AND CAPITAL ACCESS

                                 OF THE

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                             APRIL 27, 2017

                               __________
                               
                               

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   

                               

            Small Business Committee Document Number 115-017
              Available via the GPO Website: www.fdsys.gov
              
              
              
              
              
                             ________

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 25-204                 WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                 
              
              
              
              
              
              
                   HOUSE COMMITTEE ON SMALL BUSINESS

                      STEVE CHABOT, Ohio, Chairman
                            STEVE KING, Iowa
                      BLAINE LUETKEMEYER, Missouri
                          DAVE BRAT, Virginia
             AUMUA AMATA COLEMAN RADEWAGEN, American Samoa
                        STEVE KNIGHT, California
                        TRENT KELLY, Mississippi
                             ROD BLUM, Iowa
                         JAMES COMER, Kentucky
                 JENNIFFER GONZALEZ-COLON, Puerto Rico
                          DON BACON, Nebraska
                    BRIAN FITZPATRICK, Pennsylvania
                         ROGER MARSHALL, Kansas
                                 VACANT
               NYDIA VELAZQUEZ, New York, Ranking Member
                       DWIGHT EVANS, Pennsylvania
                       STEPHANIE MURPHY, Florida
                        AL LAWSON, JR., Florida
                         YVETTE CLARK, New York
                          JUDY CHU, California
                       ALMA ADAMS, North Carolina
                      ADRIANO ESPAILLAT, New York
                        BRAD SCHNEIDER, Illinois
                                 VACANT
                                 

                   Kevin Fitzpatrick, Staff Director
          Jan Oliver, Deputy Staff Director and Chief Counsel
                Adam Minehardt, Minority Staff Director
                
                
                            C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Dave Brat...................................................     1
Hon. Dwight Evans................................................     2

                               WITNESSES

Robert Barro, Ph.D., Paul M. Warburg Professor of Economics, 
  Harvard University, Cambridge, MA..............................     4
Mr. Andrew Sherman, Partner, Seyfarth Shaw LLP, Washington, DC...     6
Mr. Stephen Moore, Distinguished Fellow, Project for Economic 
  Growth, Institute for Economic Freedom and Opportunity, The 
  Heritage Foundation, Washington, DC............................     8
Chad Stone, Ph.D., Chief Economist, Center on Budget and Policy 
  Priorities, Washington, DC.....................................    11

                                APPENDIX

Prepared Statements:
    Mr. Andrew Sherman, Partner, Seyfarth Shaw LLP, Washington, 
      DC.........................................................    24
    Mr. Stephen Moore, Distinguished Fellow, Project for Economic 
      Growth, Institute for Economic Freedom and Opportunity, The 
      Heritage Foundation, Washington, DC........................    32
    Chad Stone, Ph.D., Chief Economist, Center on Budget and 
      Policy Priorities, Washington, DC..........................    39
Questions for the Record:
    None.
Answers for the Record:
    None.
Additional Material for the Record:
    None.


               SMALL BUSINESS: THE KEY TO ECONOMIC GROWTH

                              ----------                              


                        THURSDAY, APRIL 27, 2017

                  House of Representatives,
               Committee on Small Business,
                   Subcommittee on Economic Growth,
                                   Tax, and Capital Access,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2360, Rayburn House Office Building. Hon. Dave Brat 
[chairman of the Subcommittee] presiding.
    Present: Representatives Brat, Knight, Kelly, Evans, and 
Murphy.
    Chairman BRAT. All right. Good morning, and welcome 
everybody. And I will call this meeting to order. And we are 
very excited for this panel on economic growth. I think it is 
very important for our country right now.
    No matter where you stand or what side of the aisle you are 
on, I think everybody in this room hopes to help create and 
sustain long-term economic growth. Achieving economic growth 
can improve the health, wealth, well-being of every American 
amongst every other variable under the sun. I think our panel 
will probably get to that today. However, the best course to 
achieve sustained economic growth is frequently debated here in 
Washington. The United States has been stuck in a slow growth 
period for a couple decades. While the growth in the United 
States was about 3.5 percent from 1950 to 2000, the economy 
grew at an anemic rate of 1.6 percent in 2016, and about 1.5 
percent over the last 8 years.
    However, when Commerce Secretary Wilbur Ross was asked this 
week if the U.S. can return to 3 percent growth he responded, 
``With all the initiatives that we are doing, regulatory 
reform, trade reform, tax reform, and unleashing energy, there 
is no reason why we should not be able to at least hit that 
long-term average, if not beat it.''
    This morning's distinguished panel will cite a variety of 
reasons why the country has experienced slow growth, but one 
overarching theme we will hear is that Washington can do more 
to help America's businesses with the largest growth potential 
small businesses. They represent 48 percent of the workers in 
the private sector and make up an overwhelming amount of all 
businesses. And yet, today's panel will examine that more can 
be done to ensure their success.
    With next week being National Small Business Week, today's 
hearing is a timely opportunity to discuss the connection 
between small businesses and economic growth. This Committee 
and the Administration's prioritization of regulatory relief is 
sure to greatly benefit small business in the coming years.
    While small business owners painstakingly finished their 
tax returns last week, simplifying and lowering tax burdens 
would be a significant boost to both small businesses and 
economic growth.
    Access to capital is another issue that must be addressed 
to ensure the success of small businesses. While Congress and 
the Administration are committed to reviewing regulations that 
inhibit access to capital, the Subcommittee is also concerned 
that venture capital investment is largely concentrated in only 
a few metropolitan areas.
    As all of these suggestions point out, there is not a 
simple fix to improve economic growth. There is no silver 
bullet. However, through examining what creates economic growth 
and promoting pro-growth policies, the Subcommittee hopes to 
help the economy return to the historical average, and perhaps 
beyond.
    We look forward to hearing from our witnesses and thank 
them very much for being with us today. We will certainly 
benefit from their perspectives on how to improve economic 
growth through fostering small businesses. And I now yield to 
the ranking member for his opening statement.
    Mr. EVANS. Good morning, and thank you, Mr. Chairman.
    Ten years ago, our Nation was hit with the largest economic 
disaster since 1929. During the fiscal crisis of 2007-2008, we 
saw housing prices and unemployment skyrocket. By 2009, 
unemployment had reached 10 percent nationally. Fortunately, 
today, several years of steady and sustained growth have put 
our economy on the right track. Unemployment has remained below 
5 percent for well over a year. In fact, last November, the 
employment rate dipped to 4.6 percent, the lowest it has been 
since 2007.
    We have seen considerable job growth. Over the course of 
the Obama administration, America gained over 11 million new 
jobs. His presidency saw 75 percent straight month job 
creation, the largest continuous stretch of job growth in the 
U.S. since 1939. Finally, median household income surged in 
2015, rising by 5 percent for the first time since 2007. These 
economic markers indicate that our Nation has made great 
progress, yet we are still feeling the effects of the Great 
Recession.
    Access to capital remains a major challenge for small 
businesses and business formation at an historic low. GDP, 
growing at an average of just over 2 percent, and many 
economists do not believe a significant increase is likely. 
That is why it is so critical that we examine our current 
economic situation and the policies that will boost economic 
growth.
    Unfortunately, as the Trump administration approaches its 
100-day mark, policies that are likely to reverse these trends 
are scant. The administration has offered proposals that rely 
on failed economic theories that will help the wealthy at the 
expense of the middle class. We have ill-responsibly slashed 
regulations, proposed huge tax breaks for the wealthy, and 
proposed major cuts to funding for education, health care, and 
programs that small businesses rely upon, all while likely 
raising the deficit.
    In order to truly grow our economy, we need to invest in 
our Nation's infrastructure, our human capital, and our small 
businesses. Due to chronic underinvestment, America's 
infrastructure is crumbling. The state of infrastructure has a 
big impact on the economy's ability to function and grow. 
Investing in infrastructure creates jobs. Increasing spending 
by just 1 percent point of GDP would increase to 1.8 million 
jobs with 1.3 million in the construction industry alone, one 
of the industries that was worst hit by the financial crisis.
    Small businesses have been called the ``backbone of the 
American economy,'' and as we evaluate tax policies and the 
effectiveness of regulations, we must ensure that small firms 
have a seat at the table. By supporting small businesses and 
entrepreneurs, we spur job creation and economic growth.
    Finally, as we develop policies to spur economic growth, we 
must ensure that all Americans can benefit from it. That means 
ensuring economic opportunity for all individuals. Barriers to 
economic opportunity can include a lack of access to quality 
education, health care, employment, housing, and equal pay.
    All of these issues directly impact our economy and small 
businesses and they work for us. We must examine policies that 
directly address these barriers to not only create a more equal 
society, but a stronger one.
    I look forward to today's hearing and thank the witnesses 
for being here. I thank the chairman, and I yield back the 
balance of the time. Thank you, Mr. Chairman.
    Chairman BRAT. Thank you, Congressman. Thank you, Dwight.
    If Committee members have an opening statement prepared, I 
ask them be submitted for the record.
    I would like to take a moment to explain the timing lights 
for you. You will each have 5 minutes to deliver your 
testimony. If you go over it is no big deal.
    The light will start out as green. When you have 1 minute 
remaining the light will turn. Finally, at the end of your 5 
minutes it will turn red. Try to stay somewhere in that time 
limit, but we do not have a full panel here and so I think we 
are all going to take advantage of the expertise in front of us 
today, and you are all on the cameras so do not make any 
mistakes at all.
    With that, I will start off with an introduction.
    Start off by introducing someone very special to me, our 
first witness is Dr. Robert Barro, the Paul M. Walberg 
Professor of Economics at Harvard University. He is one of the 
preeminent experts on macroeconomics and the determinants of 
economic growth and has written extensively on both topics. 
Over two decades ago, I did my Ph.D. up here at American 
University on economic growth, and Dr. Barro was the leading 
light in the Nation on growth. And so I read every paper. I 
could not read fast enough to keep up with all the papers he 
was writing at the time. But inspiring and leader at Harvard, 
obviously, and for the country, and speaks for itself.
    Other research interests for Dr. Barro include the impact 
of rare disasters on asset markets and macroeconomic activity, 
as well as the interplay between religion and the political 
economy. He received his Ph.D. from Harvard University, his 
bachelor's degree from California Institute of Technology. 
Thank you very much for joining us here this morning, and you 
are recognized for 5 minutes. And you may begin your testimony. 
Thank you, Dr. Barro.

STATEMENTS OF ROBERT BARRO, PH.D., PAUL M. WARBURG PROFESSOR OF 
    ECONOMICS, HARVARD UNIVERSITY; ANDREW SHERMAN, PARTNER, 
SEYFARTH SHAW LLP; STEPHEN MOORE, DISTINGUISHED FELLOW, PROJECT 
    FOR ECONOMIC GROWTH, INSTITUTE FOR ECONOMIC FREEDOM AND 
    OPPORTUNITY, THE HERITAGE FOUNDATION; CHAD STONE, CHIEF 
       ECONOMIST, CENTER ON BUDGET AND POLICY PRIORITIES

                   STATEMENT OF ROBERT BARRO

    Mr. BARRO. Thanks very much for those kind words. I hope I 
do not disappoint you given your Ph.D. thesis.
    I wanted to make some general remarks about economic 
growth, and I think sustained economic growth is certainly the 
key to levels of standards of living in the United States and 
in other countries. And so as some quick examples, in the 
United States, the average growth of the real GDP per person 
from 1869 to 2000 was about 2 percent per year, and that was 
enough over that period of more than a century to increase the 
level of per capita income by a factor of about 16. And 
basically explains why today the GDP per person is more than 
$50,000 in the United States. It is a little less clear whether 
since 2000 this record of growth has been continued because it 
appears to be more sluggish than it used to be.
    A prominent example of the importance of growth is China, 
which opened up considerably after the death of Mao in the mid-
1970s to market forces and to enterprise. They managed to grow 
at a remarkable per capita rate of over 6 percent since the 
early 1980s. This has moved several hundred people out of 
poverty in China. I think it is probably the all-time greatest 
experience with respect to improving human welfare.
    India has moved since the mid-1980s and not quite the same, 
but in some analogous ways and has done almost as well in terms 
of growth since then and has similarly contributed to a vast 
reduction in world poverty.
    Another prominent example is the comparison between South 
Korea and North Korea. The main difference since the end of the 
Korean War in those two countries is the openness to markets, 
to enterprise, to rule of law; also, democracy later on in 
South Korea. And this experience explains why today the 
difference in terms of levels of per capita income is a 
remarkable 15 to 1 between the South and the North. By 
comparison, at the end of the U.S. Civil War, the difference 
between the North and the South was a factor of about 4 to 1, 
and the difference in Germany between West and East Germany was 
about 3 to 1. So the Korean situation is actually quite 
unprecedented.
    I have looked a lot at the determinants of economic growth 
for a broad group of countries, so over 100 countries looked at 
especially since 1960, and tried to assess what things matter 
for economic growth. So things that seem to matter especially 
are market orientation and the nature of regulations. Ease of 
doing business is important, maintenance of rule of law. Human 
capital is also important. Education and health, I think, are 
central matters. International openness is an important factor, 
so economics usually view that free trade is a plus for growth 
I think is borne out by this kind of data. Saving behavior is 
important. There is a list of forces that matter. As 
Congressman Brat said, it is not just one silver bullet, but it 
is an array of factors and policies that matter for economic 
progress.
    There is also a convergence process that shows up in these 
cross-country data. One way to look at that is that poor places 
can grow fast if they get the underlying conditions into the 
right shape in terms of the nature of institutions, openness to 
business, and so on, but that is a very difficult thing for 
poor places to accomplish.
    It is also implied that eventually countries will slow down 
in terms of growth and approach something more like the world 
average, and I think that is true currently for China. I do not 
think it is going to continue growing at anything like 6 
percent per year per capita, but more like 2 to 3 percent if 
one looks into the future.
    So if I say something more specifically about the U.S. 
recent performance in terms of economic growth and 
productivity, a striking fact since the end of the Great 
Recession in 2009 is the nonrecovery of real GDP. The normal 
pattern following the end of a big downturn is to have stronger 
than usual growth for a while. That is the nature of a 
recovery. So that has not happened. And if you cumulate that up 
till today from 2010, you are basically missing about 10 to 15 
percent in terms of the level of real per capita GDP that you 
might have expected, so that is a fairly big deal.
    And the surprising contrast, as Congressman Evans said, is 
that the labor market has been pretty strong over this period. 
So the unemployment rate has gone down a lot particularly over 
the last few years. Employment growth has been pretty good in 
terms of job creation. So you have to look at those two things 
together. GDP growth has been anemic at the same time that the 
labor market has been pretty good.
    If you put those forces together, what it says is that 
output per worker has been doing nothing. Productivity growth 
has been zero since 2010. That is why we do not have as much 
per capita income today as we normally would have expected. And 
if you think about what policies would be a good idea, you have 
to think about what policies would spur productivity growth.
    So some of the issues that have been brought up I think are 
relevant if you think about productivity. So I think regulatory 
reform is something that can be very useful. If you look at the 
World Bank's measures of ease of doing business, for example, 
the U.S. has slipped from third or fourth place to eighth 
place, and improving those kinds of measures would help to spur 
economic growth, and regulatory reform is certainly relevant 
there. I think an attractive fiscal package could spur economic 
growth, and here I would look at things like the proposed cuts 
in corporate income taxes and individual income tax rates as 
being positive. I would like to see a 1986 Reagan-style package 
of tax reform involving further base broadening. Perhaps 
entitlement reform would be part of this. That would be a more 
effective fiscal package.
    I think infrastructure investment can be important. I think 
the productivity of infrastructure capital in the U.S. at the 
margin is pretty high, especially in terms of transportation-
type projects. An important issue is how you pay for that. I 
think there is a good case for that kind of investment on a 
large scale, but you have to pay for it in a way that does not 
mess up the overall fiscal balance. Some privatization related 
to roads, airports, ports, et cetera, can be relevant there.
    The biggest concern I have in terms of prospective policies 
from the administration is in terms of possible protectionism. 
I would be very much opposed to curtailing international trade. 
I would, as a related matter, not be in favor of curtailing 
immigration. Those are the biggest concerns I have.
    If I put the overall package together, and if you get 
reasonable outcomes along the lines of policies that I sketched 
and you do not have a move toward protectionism, then I think 
it is quite reasonable to think of generating GDP growth in the 
range of 3 to 4 percent per year, at least for a few years. I 
do not think that is anything out of the realm of possibility 
and that is what I would hope to see coming out of the 
administration policies.
    Chairman BRAT. All right. Thank you very much, Dr. Barro.
    Our next witness is Andrew Sherman, partner at Seyfarth 
Shaw here in Washington, D.C., where he focuses on issues 
affecting business growth. He has also written several books on 
aspects of how to grow a business and how all businesses can 
cultivate innovation to succeed. He received his bachelor's 
degree from University of Maryland, Baltimore County, and his 
J.D. from American University. You are now recognized for 5 
minutes as well, and if you go a hair over that is all right 
with us. Thank you.

                  STATEMENT OF ANDREW SHERMAN

    Mr. SHERMAN. Thank you, Chairman Brat. It is truly an honor 
to be here, not only in front of all of you, but with this very 
esteemed panel. It has the makings of a great joke, right, when 
three prominent economists and a lawyer walk into a bar. We can 
finish that joke after the hearing.
    As you mentioned, I have devoted my life to being a legal 
and strategic advisor to small and emerging companies. I have 
had the honor of being outside general counsel to a group 
called The Entrepreneurs Organization that started with 20 
members back in 1987, and now has 12,000 members worldwide, and 
have worked with many, many entrepreneurs over the years. My 
passion for small business and entrepreneurship must be 
contagious because my wife and daughter are both now small 
business owners and entrepreneurs themselves.
    This Committee, as you know, is the champion and guardian 
of small business entrepreneurship, intrapreneurship, 
innovation, and creativity in this country. You have a 
fiduciary duty as guardian to make sure that this 
entrepreneurial ecosystem that both Dr. Barro described, I will 
be talking about, I am sure others will be talking about, is 
preserved and protected. You hold much of our country's 
economic growth in your hands as leaders and as legislators. It 
is important that we look at that entrepreneurial ecosystem as 
the crown jewel of our economy. A big component of that 
entrepreneurial ecosystem is made up in some of the policies 
that the Federal and State and local governments bring, as well 
as universities, government labs, a number of resources that 
we, the taxpayers, all support, and we trust you to do the 
right things and make the right decisions.
    As Dr. Barro mentioned, it is a delicate balance between 
doing too much versus too little. In my written testimony I lay 
out the 18 elements of this entrepreneurial ecosystem as I see 
it, and those range everywhere from human capital issues, which 
Dr. Barro mentioned, to the importance of strong government R&D 
partnerships, access to university resources, which I will talk 
more about. One of my big sticking points, I think as you know 
in the background, is reliable and fair IP laws, things that we 
can do to facilitate innovation once it has been created.
    One of my big concerns I will get to in a moment is the 
amount of innovation that we as a country are capable of 
creating, but then never commercialize. And if you want GDP 
growth, it is sitting like coins under the sofa cushion. We 
just all have to get up, lift that cushion up, and distinguish 
between what is a valuable coin and what may be some old 
Cheerios.
    We need to do better in that role, and I am going to focus 
the rest of my commentary on three key buckets. In working with 
entrepreneurs and small business, from a business and strategic 
planning perspective, most economic growth and their business 
plans for growth fall into one of three key buckets: the human 
capital bucket, which has been mentioned; the innovation 
capital bucket, which I will talk more about; and the financial 
capital bucket.
    I know that it is the work of this Committee to look at 
access to capital, affordable capital. I think that great 
progress was made with the passage of the JOBS Act, but as you 
know, the JOBS Act so far, once the SEC got around to writing 
the regulations, has been underutilized. We will see how that 
plays out over time.
    One thing that this Committee can focus on is still the 
access to debt capital. We still have an issue mostly around 
the nature of small business and entrepreneurs' collateral. If 
they are not pledging personal assets, most of their assets 
will be intangible assets, assets that banks are not ready to 
deal with. I proposed a couple of ideas in the written 
testimony about things we might be able to do to facilitate.
    So the next issue, the issue I want to drill into for a 
minute is this human capital issue. I recently wrote a book 
called ``The Crisis of Disengagement.'' I read a Gallup study 
called ``The State of the American Workforce.'' It came out 
about 3 or 4 years ago. It was recently updated in December. We 
have 4 percent of the American workforce; 4 percent that 
describe themselves as highly engaged. That is a concern, 
right? We have almost a third of the American workforce that 
describes themselves as highly disengaged.
    Now, the last time I checked, no American worker at a small 
business or otherwise will be up at night thinking about ways 
to improve customer service, to improve the product or service 
of the company if they are highly disengaged in the workplace. 
They will be up at night thinking about their next job or their 
upcoming vacation. We need to examine that issue in greater 
detail.
    I called this issue a crisis in my book because I believe 
in my heart it is a crisis. We cannot have economic growth 
without an engaged workforce. I mean, that is a huge gap. We 
have a human capital gap. It is an issue that I am happy to 
drill into in future hearings, but this part of the human 
capital gap must be improved.
    I will briefly touch on the other two buckets and turn it 
over to Mr. Moore.
    On the intellectual capital gap, we have incredible 
innovation waste in the country. Millions and millions of 
dollars that you allocate through university research, through 
government lab research, never finds its way into the hands of 
entrepreneurs and small business owners. What can all of us do, 
whether from a legislative perspective, a policy perspective, a 
communication perspective, to close that gap? Entrepreneurs and 
small businesses do not have the resources to create these 
assets, but they have all of the knowledge and the channels and 
the energy to bring those assets to the marketplace. So if we 
can do a better job closing the gap between the two, I think 
that we can spur economic growth in that fashion. Many 
commentators from Baruch Lev up at NYU, to Ocean Tomo--to 
others, have discussed how our economy has shifted.
    In 1975, 85 percent of the overall value of the S&P 500 was 
captured in tangible assets. That has shifted all the way to 
the other side, and we now have an economy that is driven. I 
mean, think about the Facebooks, the Googles, all of the great 
growth stories. They are all made up. Primarily 95, 98 percent 
driven by intangible assets. So we need to think about the role 
that those assets play in the economy more effectively, and I 
think that those two issues alone are capable of really moving 
the needle on the GDP front.
    Thank you. It has been an honor to provide this testimony, 
and I will turn it over to Mr. Moore.
    Chairman BRAT. Thank you very much,
    Mr. SHERMAN. We appreciate your testimony and look forward 
to asking questions.
    Our third witness is also a personal friend over the years, 
highly respected in the field of growth, Stephen Moore, 
distinguished fellow with the Project for Economic Growth at 
the Heritage Foundation. He is also a key contributor for the 
Institute of Economic Freedom and Opportunity at Heritage where 
he focuses on advancing policies that benefit economic growth 
in the United States. He received his bachelor's from the 
University of Illinois, Urbana-Champaign, his master's from 
George Mason University. Thank you for coming to testify this 
morning, and Steve, looking forward to your testimony. You may 
begin. Thank you.

                   STATEMENT OF STEPHEN MOORE

    Mr. MOORE. Thank you, Mr. Chairman. Thank you, Mr. Evans. 
And I must say that I have agreed with everything I have heard 
so far. And thank you for letting me talk about my favorite 
subject, which is growth, growth, growth. And we do not have 
enough of it. I think that is the central problem with the U.S. 
today.
    I agree with Professor Barro's assessment that there is 
something that has happened over the last 15 years that has 
slowed down growth. The latest forecast by the Congressional 
Budget Office is forecasting with U.S. economy over the next 
10, 20, and 30 years we will grow between 1.8 and 1.9 percent. 
That is completely unacceptable. We cannot solve any of the 
problems that we want to solve as a Nation, whether it is 
lowering the debt, lowering the deficit, building the 
infrastructure that Congressman Evans was talking about, 
reducing poverty, improving schools, just about anything.
    We need faster growth. And at one point, 9 percent growth, 
we are going to see the United States in terms of our debt in 
the next 25 years look like Greece and Puerto Rico, and that is 
very troubling. But if we get faster growth, if we can work 
together to find ways to just about the growth up to 3 percent, 
which as Professor Barro said, that would actually be slightly 
below what we normally had, 3 percent is not shooting for the 
moon, we can start to see our debt curve slope downward.
    If you look at the last, let us see, where is this chart in 
my testimony? I think it is worth looking at. It is on about 
the fifth page, the power of expanding the economy, you can see 
with the red line it is showing what happens to the debt if we 
stay on the course the Congressional Budget Office is 
predicting. If we can get to 3 percent growth, look at that, 
the debt actually does not grow. It does not go to 150 percent; 
it falls to 50 percent. So growth is everything when it comes 
to dealing with this budget. Of course, we have to make some 
tough decisions on the budget, which you have really devoted 
your time here in Congress, Chairman Brat, but that is 
important.
    Second of all, growth is not just about improving people's 
living standards. A lot of people say, well, yeah, you know, 
you can have a lot of growth, but what about income inequality? 
What about the health? What about the environment that we live 
in? And if you look at some of these other charts in my 
testimony, you can see that growth is highly associated with 
improvements in everything.
    So, for example, if you look on the fourth page of my 
testimony, chart 1, you can see what Professor Barro was 
talking about, the big increase in living standards, especially 
in countries like China and India, and you can see the dramatic 
increase in growth. And look what happened to poverty. So as 
growth goes up, poverty goes down, which means that a rising 
tide in most cases really does lift all boats. It makes 
everybody better off.
    But then if you turn to the next page you can see that 
growth is actually highly associated with these other measures. 
So life expectancy is highly associated with growth.
    Professor Barro talked about the situation in North Korea. 
Not only is their growth horrendous, but North Korea has one of 
the lowest life expectancies of any country in the world. Their 
life expectancy is less than 50, and South Korea, I do not know 
their exact number. They are probably at about 75. I mean, that 
is a gigantic difference, 25 years. And that is associated with 
lower growth, lower nutrition, and so on.
    And even environmental protection, by the way, is highly 
associated with growth. Countries that are prosperous, like the 
United States, have cleaner air, cleaner water, than nations 
that do not.
    So how do we get there? I would just suggest a couple of 
things. Number one, this idea that there is secular stagnation 
and that the U.S. economy can only grow at 2 percent, I think 
we all need to reject that. Congress needs to reject that idea 
and say, no, 2 percent is insufficient. How do we get to 3 and 
3.5? Well, as Professor Barro mentioned, there are two ways to 
do that. You grow the labor force, number one, and number two, 
you make the labor force more productive.
    I want to just in my last minute and a half discuss this 
issue about growing the labor force. I think there is no reason 
we cannot see a lot more people working in this country. You 
all know these figures; the last 15 years or so we have seen a 
steady decline in the labor force participation rate. By the 
way, that is not only because people are retiring. It is 
partially because of that because there are 10,000 baby boomers 
retiring every day, but that is only part of the story. The 
more troubling part is that younger people are participating in 
the labor force at a later age.
    You know, when I was at the Wall Street Journal, every week 
we met incredible captains of industry in finance, sports, 
medicine. People were great in whatever field it was. And what 
struck me so much was I would always ask these people, where 
did you come from? So many of them even grew up on farms. They 
started working when they were 8, 9, 10 years old, and they 
developed a work ethic. We have got to get that back.
    We spend a trillion dollars a year paying people not to 
work at the Federal level through welfare programs. Every 
Federal welfare program, we are a generous, compassionate 
country, but every single welfare program should have a work 
component for able-bodied people to get them in the workforce 
because you cannot escape poverty, Mr. Chairman, if you are not 
working. It is that simple.
    And finally, we need more immigration. I agree with 
Professor Barro on this. Because of the aging of the baby 
boomers, we are going to need more legal immigration, not less. 
And the idea of capping things like the H1B visas at this low 
level I think is lunatic. I think there is no question that the 
more skilled and talented and entrepreneurial people we bring 
into this country actually adds to the number of jobs in this 
country; it does not subtract from them. So we can do this. We 
can do it with the right set of policies.
    The final thing I will say in the last 10 seconds is that I 
do think that the tax cuts that Donald Trump introduces 
tomorrow could have a positive effect on productivity and on 
labor force. If you reduce the tax on working, you are going to 
get more work. It is not that complicated. If we can reduce 
those tax rates on businesses and individuals and increase the 
reward for working, the after-tax income that people make, you 
are going to get more people working and that will have a 
positive impact as well.
    Thank you, Mr. Chairman.
    Chairman BRAT. Thank you very much, Mr. Moore, for your 
testimony.
    And I will yield now to the ranking member to introduce Dr. 
Chad Stone.
    Mr. EVANS. Thank you again, Mr. Chairman.
    I am pleased to introduce Dr. Chad Stone. Since 2007, Dr. 
Stone has been the chief economist at the Center on Budget and 
Policy Priorities, a nonpartisan research and policy 
institution in Washington, D.C. Dr. Stone has also served as an 
economist of several government organizations, including the 
Joint Economic Committee, the President's Council of Economic 
Advisors, the Senate Budget Committee, the Office of Management 
and Budget, and the Federal Trade and Communication Commission.
    Outside of government, he has worked at the Urban Institute 
and taught economics at Wayne State and Swarthmore College. Dr. 
Stone has a B.A. from Swarthmore and a Ph.D. from Yale. 
Welcome, Dr. Stone.

                    STATEMENT OF CHAD STONE

    Mr. STONE. Thank you. Chairman Brat, Ranking Member Evans, 
and other members of the Committee, thank you for this 
opportunity to testify today about the causes, benefits, and 
current limits on economic growth. These are important topics 
to understand better if we are to evaluate properly President 
Trump's bold claim that his policies will supercharge the 
economy and return us to the higher rates of growth we enjoyed 
in an earlier era.
    I make four broad points in my written testimony. I agree, 
growth matters, for raising living standards and for fiscal 
stability.
    Second, economic growth over the next decade is likely to 
be much closer to the 2 percent that CBO is looking for than 
the 3 percent that the Trump administration is promising. That 
is looking at the constraints on growth. Policy can nudge that, 
but policy, I do not think, can make such huge increases in 
growth.
    Third, large tax cuts. They are far from a sure fire way to 
spur growth, higher taxes do not preclude growth and tax cuts 
can harm growth if they add to the budget deficit or are paired 
with cuts to productive public investments.
    Finally, small businesses are important pieces of the 
American economy, but in evaluating sources of growth, it is 
important to know that it is new businesses, entrepreneurial 
businesses, rather than small businesses, per se, that are the 
real thing that matters.
    So growth matters for our standard of living and our fiscal 
health. A growing and increasingly productive economy has the 
potential to make all our lives better if the fruits of that 
growth are broadly shared as they were in the generation from 
1948 to 1973, when strong productivity growth doubled living 
standards up and down the income distribution. Strong growth 
also contributed to a sharp decline in public debt as a share 
of GDP during that period, even though we ran budget deficits 
almost every year.
    Growth since then has been more uneven and inequality has 
widened. The economy's capacity to supply goods and services, 
which is really the ultimate limit on growth--economists call 
it potential GDP--grew more rapidly in that earlier period than 
it has on a sustained basis anytime since, and it is likely to 
slow further going forward.
    I refer you to figure 1 in my testimony which shows CBO's 
estimates of the past and projections for the future of the 
contributions to potential GDP growth of growth in the 
potential labor force and growth in productivity, which we all 
agree are the things that we want to focus on for where growth 
comes from.
    So CBO, as Steve said, projects, and as others have said, 
projects that the economy will only grow 2 percent over the 
coming decade, and that is below the 3.2 percent growth in 
potential that we achieved in the period from 1950 to 2016. And 
it is slower prospects for growth in potential that CBO focuses 
on. So President Trump has claimed that growth could be 3.5 or 
even 4 percent. Treasury Secretary Mnuchin more recently said 3 
percent or higher. This gap between CBO and the administration 
is historically large in the history of such forecasts.
    Economist Edward Lazear, who was president of George W. 
Bush's Council of Economic Advisors, is sympathetic to the 
Trump policy goals and cites 3.2 percent growth as a target, 
nevertheless concluded in his op-ed about this that achieving 
such a high rate of growth is ``unlikely'' with respect to the 
budget.
    CBO and OMB calculations suggest that faster economic 
growth would improve the fiscal outlook. Their evidence 
suggests that a 1 percentage point increase in annual growth 
would reduce deficits by roughly $3 trillion over a decade. Of 
course, that only happens if the growth actually materializes. 
Basing one's budget forecast on an overly optimistic economic 
forecast as a way to offset the cost of one's policies will 
understate the adverse impact, perhaps substantially, of those 
policies on actual future deficits.
    Exaggerated claims for economic growth benefits of large 
tax cuts have been around since the emergence of supply-side 
economics in the late 1970s and persist to this day, but there 
is scant evidence that tax cuts have such large effects, or 
that tax increases preclude economic growth.
    I have just an illustration that growth need not be impeded 
by tax cuts in figure 2 of my testimony, which looks at growth 
and job creation following the 1993 Clinton tax increases on 
high-income folks and the 2001 Bush tax cuts. It is anecdotal 
evidence; it is not a controlled scientific experiment, but it 
illustrates that conclusion.
    Let me just tick off a list of the other things I discuss 
in my testimony. First, I discuss Kansas's experience with 
large tax cuts as a notable recent supply-side failure that has 
wreaked havoc on the State's budget.
    Second, I discuss how tax cuts are likely to hurt growth if 
they increase deficits or if they cut investments in 
infrastructure, or antipoverty programs. There is research 
showing that antipoverty programs actually have a significant 
positive effect on life outcomes of poor children farther on, 
going to college, succeeding at work.
    Now, today, even the Tax Foundation, which produces the 
most aggressive dynamic scoring estimates of tax cuts, rejects 
the claim that Trump tax policy is going to produce enough 
economic growth to pay for its tax cuts. Now, that is the most 
extreme of supply-side claims, but even the Tax Foundation says 
that their model, their aggressive model, does not find that.
    Finally, I discuss how a Trump plan to cut rates on so 
called ``pass-through income'' encourages tax avoidance, 
provides almost all of its benefits to very high-income 
individuals, and does almost nothing for most small businesses, 
true small businesses, who already pay the lowest rate and 
would not get any cut from proposals to cut the rate on pass-
through income. Figure 3 in my testimony illustrates that.
    Finally, with respect to small businesses, I liked Mr. 
Sherman's testimony and I will add that one of the experts in 
changing our view about small businesses per se being the main 
engine of growth to the view that it is new and entrepreneurial 
businesses that are the engine of growth. And that is John 
Haltiwanger at the University of Maryland. What he says is that 
most entrants fail. Most surviving young businesses do not 
grow. But a small fraction of surviving young businesses 
contribute enormously to job growth. A challenge of modern 
economies is having an environment that allows such dynamic, 
high-growth businesses to succeed. That is your challenge on 
your Committee. Thank you.
    Chairman BRAT. Thank you very much.
    All right. I think I will start off questioning. I was 
going to start off on regulatory with Dr. Barro, but I think we 
will go back and forth on tax cuts for a minute. And so Steve, 
if you could address in a couple minutes, tough to do, but 
number one, the supply-side term. I am not exactly sure what 
that means, right? If you gave a tax cut, you can do it on the 
consumer side to people, right, and that puts money back in 
people's wallet. But if you are going to enhance productivity, 
that almost by definition is on the supply side. That is 
business.
    And so the pejorative supply side as a reference to 
business, I do not understand. But Steven, if you want to take 
it from there and we are going to try to broadcast some of the 
proceedings to the public as an educational opportunity. So can 
you explain just in laymen terms how tax cuts do lead and can 
pay for themselves, or at least partially pay for themselves in 
a minute or two?
    Mr. MOORE. Look at the Trump plan because that is right 
smack in front of us right now. We have very, very high 
business tax rates, virtually the highest in the world.
    If you look at the chart on the last page of my testimony, 
it is instructive. What you can see is that we are living in a 
globally competitive world today. Do you have the testimony, by 
the way? It is this chart here with a yellow background.
    We are living in a global economy. There is no putting the 
genie back in that bottle, no matter how big you try to build a 
wall or a fence around the country. So what has happened over 
the last 30 years is the rest of the world is, if you see these 
red pillars falling, these are the reductions in the tax rates 
of all the countries that we compete with: Germany, Spain, 
Italy, Ireland, Australia, Canada, and on and on.
    So what has happened is we used to have a competitive 
business tax. If you look back in the '80s and '90s, our 
corporate rate was actually lower than the rest of the world. 
The rest of the world has been very aggressive in cutting the 
rates. They are effectively engaging in Reaganomics. They are 
cutting their tax rates in large part to steal businesses from 
the United States. I mean, they are looking at the U.S.
    I was just not long ago in Ireland, in Dublin. It is 
amazing. You know, Ireland does a 12.5 corporate rate. An 
amazing number of American companies are located there right 
now.
    Well, Chairman Brat, you cut me, I bleed red, white, and 
blue. I do not want American jobs in Ireland. I want American 
jobs here in Michigan and Ohio and my home State of Illinois, 
and so on. This cannot work anymore. We are 15 to 20 percentage 
points above the average. It is almost unpatriotic to support a 
system like this where we are putting every American 
corporation, whether it is Google or Microsoft or Boeing and so 
on, at, you know, I call this like a Head Start program for 
every country that we compete with. And it is costing us jobs.
    So do I believe that if we bring this rate down from way up 
here to maybe at or below the international average, that is 
going to bring jobs and growth back to the United States? Hell, 
yes, I do. I do not think there is any question about it you 
are going to see more jobs created. Now, whether or not that is 
going to pay for itself or not, I do not know. Maybe it could, 
maybe it could not. Probably not. My only point is that if you 
can bump up growth by even 0.2, 0.3 percentage points, do it. 
Do it. I do not even care what it costs. Do it because the 
long-term benefits and living standards--by the way, we measure 
these things in 10 years.
    The reason my chart is looking at the 30-year impact of 
these things, is that, you know, there is an old saying that 
the most powerful force in the universe is compound interest. 
If you get the compounded effect of even 0.5 percent growth 
over not 10 years but 20, 30, 40 years, you are talking about 
major, major increases, not just in growth, but in revenues to 
the government. And I would say that is a good deal to have.
    Chairman BRAT. Dr. Barro, you emphasized the regulatory 
burden and how we can enhance productivity by dealing with 
regulations. If you can just go into a little more detail on 
what you have in mind. Americans, if you could knock door to 
door like politicians do, if you ask the average family do you 
want more or less regulation, they will say more, surprising. 
And so, but at the same time, we have $2.5 trillion of 
regulatory burden. And so if you are explaining to the average 
American, how do you differentiate between regulation that is 
good for the consumer versus that which inhibits economic 
growth?
    Mr. BARRO. If I could respond briefly first to what Steve 
just said. So I agree what he said on the corporate tax rate. 
So we have been trying to estimate that in detail for a broad 
group of countries where we have been trying to measure 
corporate income tax rates. So preliminary finding there is if 
you cut the corporate tax rate by 10 percentage points, the 
proposal now in the U.S. is for even more than that, that that 
boosts the rate of economic growth on a sustained basis by 
about 0.3 percent per year. So that is a substantial 
contribution to growth if that estimate is right in terms of 
the proposals that are being floated with regard to U.S. 
corporate taxation.
    I have spent more time myself looking at the individual 
income tax in the U.S. and how it impacts the macro economy. So 
I found that reducing the average marginal income tax rate in 
the U.S. system, if you do that by 2 percentage points, the 
growth effect over a 2-year period is about 0.5 percent per 
year. It is fairly substantial.
    In terms of U.S. history that matters there, the biggest 
cuts by far are the Reagan cuts in two phases in the 1980s 
accumulating to 8 percentage point cuts. So that is very 
dramatic. In contrast, the Clinton episode that was mentioned 
before was actually an increase by 1 percentage point. It was 
basically trivial. It was a tax increase, but very small. And I 
certainly agree the economy grew very well in the 1990s despite 
that. But it does not really contradict the evidence about tax 
effects.
    The other tax change that was particularly important in the 
sample is in the Kennedy-Johnson tax cuts of the mid-1960s, 
which is also fairly substantial and seemed to promote economic 
growth.
    So what you asked about regulations, we have been 
particularly trying to measure that better using the World Bank 
indicators about ease of doing business, which has 10 different 
components, such as cost of starting a business, cost of ending 
a business, in particular, what do you have to do to go 
bankrupt, basically. Cost of getting electricity, cost of 
getting credit, it is a very impressive research effort that 
the World Bank has been carrying out in this manner since 2004. 
And it does turn out to be true in this context of this cross-
country economic growth experience that better regulation 
measured in that way has a noticeable effect. So that is an 
impact that you think about the likely change you could do 
today in the U.S. that might spur growth by about 0.3 percent 
per year. That is sort of part of the administration package 
that one might think about.
    So basically, I put together a number of those components. 
That is what gives the prediction that growth could be higher, 
in the 3 to 4 percent range over some interval. Infrastructure 
investment I think could contribute there, but I do not really 
have good estimates as to exactly by how much, but I think that 
that could also be positive.
    Chairman BRAT. All right. Thank you very much, Dr. Barro. 
My time has expired.
    I would now like to yield to the ranking member, the very 
patient and kind ranking member, Mr. Evans, for at least 5 
minutes or as long as you would like to go. Thank you.
    Mr. EVANS. No problem. Thank you, Mr. Chair.
    I really want to follow up on the chairman's question and 
give Dr. Stone and Mr. Sherman an opportunity from your 
perspective because you were showing a lot of body language, 
Dr. Stone, when Mr. Moore was commenting. So you get your 
chance to give your comment there, Mr. Sherman.
    Mr. SHERMAN. Well, first of all, Chairman Brat, when I say 
``supply-side policies,'' I am talking about anything that 
increases potential GDP as opposed to short-term economic 
demand stimulus. And I think that we are very close to full 
employment now and supply side policies can, if properly well-
constructed, supply side policies can boost economic growth to 
a certain degree, that includes all the things we have talked 
about. It is just the estimates that Steve likes about how 
large those estimates are really, that is my complaint. Not 
that you cannot nudge it a couple of tenths.
    Now, Professor Barro and I could have a conversation about 
whether all those things and adding them all up based on cross-
country comparisons is where the United States is going right 
now, but we all agree on what the sources of growth are. Our 
question is, what is the magnitude of the supply side? And if 
you have tax cuts that contribute to the deficit, make the 
deficit worse, then you are creating a drag from the deficits 
and that is harmful to growth. Notwithstanding Professor 
Barro's views, very interesting insights onto long-term savings 
behavior.
    Mr. EVANS. Mr. Sherman?
    Mr. SHERMAN. Mr. Evans, thank you for giving the lawyer the 
last word on this. It is always much appreciated.
    Rather than debate, I want to augment two important points. 
Number one, look, I think everyone in this room would like a 
tax cut of some sort. Who does not want a few more dollars in 
their pocket? But let us not talk about tax cuts. Let us also 
talk about tax incentives.
    For 100 years, we have used the tax code to foster and 
reward behaviors that we want businesses or individuals to 
make, and I think that as important as the tax cuts are, and I 
am all in favor of them, I also would like to see a package of 
tax incentives. The issue is not unemployment anymore, but it 
is underemployment. We still have a crisis of underemployment 
in this country. People have jobs, but they are not the jobs 
that they are capable of doing.
    I would love to see a package of tax incentives that would 
close the gap in the underemployment crisis, reward training 
and education, reward mentoring and coaching. Reward giving 
people the kinds of skills within companies that they can be 
doing what they were educated to do, and I think you will see 
the ripple effect of that being economic growth. So that would 
be kind of point one.
    I think the other thing is to really, you know, address the 
issue of how we are going to allocate these resources. Will 
people, if we give them the tax cuts, you know, put the money 
into places that will truly stimulate economic growth, and can 
there be additional rewards or policies that will do that? 
There is a finite number of dollars in the country and it is 
about allocating those dollars in the right places to do the 
right things that will foster economic growth, whether that is 
in the area of fostering innovation and rewarding innovation or 
whether it is on the human capital side in closing this 
underemployment gap that I think exists in this country.
    Mr. EVANS. Dr. Barro, you stated poor places can grow fast 
if the right underlining factors are in place. What are some of 
those underlining factors?
    Mr. BARRO. So those are some of the variables that I 
mentioned before. The underlining institutional framework, I 
think is quite important. I think about maintenance of rule of 
law and market orientation, the nature of the regulatory system 
that particularly allows businesses to operate effectively. I 
think policies related to human capital are important, and I 
mentioned education and health as being important aspects of 
that. International openness is an issue.
    So if you look at a typical poor country, which today the 
biggest concentration is actually sub-Saharan Africa. It would 
have been different if you looked earlier you would have found 
more Asian countries, and you asked, well, why can they not 
grow rapidly and converge to the richer places?
    So I think it is systematically the case that countries 
that are impoverished are unable to maintain the kinds of 
institutions human capital policies, other policies that are 
conducive to economic growth. That is why if you look across a 
broad group of countries and you ask do the poor grow faster 
than the rich, the answer was no. But if you look in a 
conditional sense and you ask if you are a poor place and you 
get things reasonably in place, like China did starting in the 
mid-1970s, can you grow fast, and the answer is yes. So it is 
sort of good and bad news in that respect.
    Mr. EVANS. Mr. Moore, during your appearance on CNN 
Tuesday, you said that the U.S. has the dumbest corporate tax 
system. What would you suggest to the Trump administration to 
fix the system? And what is your take on the decision by the 
current administration to abandon the TPP and the impending 
decision to do away with the North American Free Trade 
Agreement? I do not know if the language would be that they 
said do away with it or renegotiate it. So you now have that 
chance, you are the Treasury Secretary or you are the senior 
advisor, which you did say the dumbest corporate tax system. 
Did you say that?
    Mr. MOORE. It is pretty dumb. You could not come up with 
anything much dumber than what we have.
    Mr. EVANS. You did say that. I just want to make sure we 
got your quote right.
    Mr. MOORE. I would bring the rate down. I would get rid of 
a lot of the exemptions. And one of the things that is really 
interesting about our corporate tax is that you actually do 
have a lot of companies that are paying this 40 percent rate, 
but you have others that are paying almost nothing. The wind 
industry pays negative income tax. We pay them to produce. So 
the inequities of the system are also not very efficient for 
the economy.
    So I would try to lower the rate. I would try to get rid of 
the loopholes in the system. You know, just as the individual 
system has a lot of loopholes and special interest carve outs, 
so does the corporate system.
    And by the way, I just want to make this point very clear. 
I am not saying that taxes are everything, by any means. I 
mean, you know, we have heard testimony today about 100 factors 
that affect growth and they are all right. I am just saying 
taxes are one of the factors, and I think we could have a much 
more efficient corporate tax.
    On trade, I am not an expert on trade, but I would simply 
say this, that I believe in international trade. I agree with 
what Professor Barro said. There is good news today that Donald 
Trump announced that we are not going to withdraw from NAFTA, 
which I think is a smart decision.
    On TPP, I have to say I am going to pass on that just 
because I do not know enough about it. I am for trade with Asia 
for sure. I just do not know enough about the specifics of that 
trade agreement to know if there are things on that agreement 
that were not in America's interest. But on balance, we should 
absolutely have free and open trade with Asia.
    Mr. EVANS. Thank you, Mr. Chairman.
    Chairman BRAT. With that, I would like to recognize the 
gentleman from Mississippi, the very patient Mr. Trent Kelly, 
my good friend, for 5 minutes at least. Thank you, Trent.
    Mr. KELLY. All right, guys. I am a military guy, so let us 
finish up in 5 minutes and leave some time back to the 
chairman.
    I think one of the greatest things, whether it is tax cuts 
or we are talking about economic policy or whether we are 
talking about the stock market is consumer confidence or the 
confidence of the American people. And I do not think you can 
measure that. But I can tell you just last week I was meeting 
with a business from another country that is talking about 
moving another manufacturer to Mississippi because they like 
what the President says about the corporate tax rate. Well, to 
me, I do not know how much money we will get out of the 
corporate tax rate, but all those individual income tax rates 
that we have.
    The other thing that really concerns me is how we talk 
about the employment rate in this Nation. We are not almost at 
full employment. We have people who have given up on getting 
good jobs. We have people who are overqualified for jobs 
because of college educations when they should be trained in 
something that has earning power as opposed to a lot of fun at 
college. And so I think our workforce is very, very important.
    But I disagree that we are at the lowest unemployment rate 
that we have ever been. We may be by that number and that 
standard, but I know in Mississippi, when someone gets on 
government assistance of some sort, 88 percent never get off. 
And most of those people are not people who cannot do jobs. So 
I think we have got to get folks to working and everybody have 
a great opportunity to work.
    What is the best way to make sure that we are getting 
people trained? I think the workforce skilled workers who can 
make a great wage as opposed to thinking going and getting a 
liberal arts degree from wherever is going to make them 
employable. How do we do that as a Nation to make a workforce 
that is second to none? And, I guess, yes, Mr. Sherman?
    Mr. SHERMAN. Corporate treasuries in this country have 
reached record levels of cash. I mean, multiple articles have 
been written. The latest trend in CFOs after deploying some 
cash towards M&A and some other initiatives, not enough towards 
innovation in my opinion, are now stockpiling again. We talked 
about tying perhaps a tax incentive of some sort. I would love 
to see, you know, most large companies have all kinds of 
private universities that exist within their companies, private 
education and training initiatives.
    I agree with everything you have said. You know, we have a 
workforce that is hungry for better jobs, to earn more. Those 
will easily have a ripple effect on GDP by any of our panel of 
standards. You know, is there something we can do to either 
lightly or not so lightly encourage the deployment of that cash 
and the deployment of those resources to get a better trained 
workforce.
    I agree with Mr. Moore, our workforce is not competitive 
globally. Closing our borders is not going to help that at all. 
It is going to hurt it. And there has got to be some things 
that we can do, either create tax or nontax incentives to 
reward companies for deploying just a sliver of those cash 
stockpiles and those intangible resources they have to put the 
people of Mississippi and the other 49 States as well to work.
    So it is all there. All of the pieces that we need for 4, 
5, 6 percent GDP growth, if I could be that bold, are sitting 
like coins under the sofa cushion. I ask this Committee, and I 
ask the leaders of our country to lift up those sofa cushions 
and start picking at those quarters and half dollars because 
they are all there. We have the resources to be competitive.
    Mr. KELLY. Okay. And very quickly, Mr. Moore, I want to ask 
you this. What can we tax-wise or capital access-wise do for 
small businesses that help us to create that workforce that 
sustains those small businesses? I mean, it could be 
regulations. It could be some type of tax benefits. But how do 
we incentive our businesses, our small businesses, 
specifically, to get a workforce that works for them?
    Mr. MOORE. Well, I was struck by the last comment you made 
in your testimony, that quote from the professor about the 
different types of companies that are leading to growth, and it 
is these innovative companies that just take off. You know, 
trying to find the next Google, trying to find the next 
Microsoft, and so on. That is hard to do, you never know, and 
it is true that two out of three companies fail small 
businesses. So what you need to do is try to find the capital 
for these companies so that they do not--there are too many 
examples of companies that actually have a great idea and they 
run out of money. And before they can launch the thing and 
really get it to the next level, they run out of money and they 
go out of business. That happens with drug firms. So finding 
ways that we can get capital into companies, investment 
capital, I think would be crucial.
    I will make one other quick point. I agree with you on this 
issue of the labor force, that we can have a lot more people in 
the labor force. I just did the statistics about a month ago. 
Looking at the age-adjusted change in the labor force, because 
it is true, one of the reasons the labor force participation 
rate has fallen is because so many more people are over the age 
of 65.
    But if you just look at people in a prime 18 to 65 year, so 
take out the people who are retiring, if we had the same labor 
force participation rate today that we did, say, in 2000, there 
would be 7 million more Americans in the workforce.
    So I do not buy this idea that we are falling. I hear that 
all the time. I am like, what are you talking about? We are not 
near full employment. It is just the unemployment rate number 
has become really kind of a meaningless--we should really 
probably report the U6 number because the headline unemployment 
rate to me has become highly misleading.
    Mr. KELLY. And Mr. Chairman, if you will indulge me. And I 
think the key is most of those people who are not--they are not 
in the unemployment rate, but they want to work. They want to 
do a job and they want to be productive for this Nation. 
Unfortunately, we have got to figure out how to give them 
businesses where they can work and they are back in the 
workforce. Thank you.
    Mr. MOORE. Can I just suggest one other quick thing because 
you mentioned this? What could we do to get people better ready 
for the labor force? I agree with you. The idea of spending 
$200,000 to go to a 4-year university in a lot of cases in my 
opinion has become a waste of time. Why not allow people 
apprenticeships?
    You know, when I talk to employers, it is interesting, a 
lot of them say the biggest problem I have is finding the 
workers that have the skills we need. I mean, 90 percent of 
them say that is their biggest problem even when we have tens 
of millions of people outside the workforce. Why not have a 
program where you have apprenticeships for somebody who wants 
to become a carpenter, somebody who wants to become a mechanic, 
or something like that? And if they get that apprenticeship 
they have the equivalent of a college degree. Because you know 
what? That apprenticeship might be better for them than getting 
a degree in sociology.
    Mr. KELLY. I yield back, Mr. Chair.
    Chairman BRAT. Thank you all. I think we are verging in at 
the end. This is a very good conversation and for me it is 
always kind of interesting because I taught college for 20 
years and we all say human capital and everyone talks about 
policy and politics up here in D.C. But maybe just in closing, 
if each of you could just give a minute, I am interested in 
kind of the intersection between policy and culture. And so we 
all know in K-12 education right now, the teachers are being 
asked to do the impossible. They have to teach the subjects. 
They have to teach to the test. They have to do discipline. 
They have to do gym class. They have to do everything. It is 
not happening, right?
    So I think there is pretty broad agreement on this. Labor 
force, you know, the unemployment rate, and that all gets into 
politics as to who is doing good and who is not. And I think we 
are kind of getting by that.
    But there is a cultural issue, and Dr. Barro talked about 
convergence. Right after you reach high incomes, some of it is 
just cultural at the high end. You say, hey, I do not need to 
work as many hours, right? I am going to take vacation. I am 
going to take a little break from the workforce. But for the 
lower income folks that is not an option, right? And so we 
always get into the politics of the haves versus the have nots, 
and so if the panel, if you want to just comment.
    So we wanted to get the right tax policy, but this stuff 
has to pass bipartisan. So what is a compromise? How do you 
think about a compromise across the aisle where we get it right 
for the poor in the inner cities, in the K-12 that is broken? 
And at the same time, I mean, I do think tax cuts, especially 
on the corporate side, we have got to get the economy rolling, 
just the psychological energy there.
    But any comments, and let us just start, Dr. Stone, if you 
just want to kind of close and give us any ideas you have on 
kind of bipartisan, what can we do to get some agreement going?
    Mr. STONE. It is a tough environment for bipartisanship, as 
you well know.
    So first, I would like to respond to the notion--I agree 
that the Great Recession produced a whole lot of people who 
were out of the labor force, and that has come way down. U6 is 
pretty far down. Part-time jobs is a bigger problem than people 
outside the labor force--too many people still have part-time 
jobs when they want full-time jobs.
    But this argument that so many people on assistance are not 
working, that is just not what the evidence shows. Large 
numbers of people on SNAP, on TANF, in fact, work. The lower 
income population is moving in and out of the labor force. Many 
times when they are receiving assistance they are still 
working. The idea that we need work requirements because people 
are not working is, I think, misplaced.
    I think we would do better to look at the evidence on how 
much people actually are working, and we need a strong economy. 
If you are going to have work requirements, you need a strong 
economy where people can actually find jobs. And part of that 
is increasing the overall growth rate, but part of it is making 
sure that money is in the places where communities need it.
    Chairman BRAT. And so in your view, the kids on SNAP, do 
you think they have expectations of achieving greatness in 
their life? I mean, it is always interesting, we talk about vo-
tech and technical education, all these kinds of things after 
college. We are paying $14,000 per year per kid for 13 years, 
right? I taught economics. Kids do not know what a price is 
from a cost from a profit after they graduate from high school, 
and half will not go to college. And so that is what I am 
getting at. I mean, where do we give this psychological boost 
that every kids needs to have regardless? Because I do not see 
it there.
    I mean, I taught kids at the higher end. And even they, 
right, I mean, what are you going to do after you graduate, 
Johnny? I am going to go ski in Colorado for half a year or 
something. I am like, okay. They are not pumped up to get to 
work.
    Mr. STONE. I mean, you do not want to hear about more 
resources, but resources matter, especially in disadvantaged 
communities in the school system. But also, I will echo what 
Steve said about apprenticeships or community colleges. That is 
a place where people who come lately to the idea about success 
can get education. So if we have useful support for those, 
encouragement, that is something.
    Chairman BRAT. And that is coalescing up here in the 
Committees. There is broad agreement we have got to go in that.
    If you want to close, Mr. Sherman, with a minute or so.
    Mr. SHERMAN. Yeah, I apologize. I do need to run. But I 
think that we are getting to the heart of what could be a 
bipartisan solution and that is around this issue of training 
education, whether it is apprenticeships, internships, more 
corporate participation at all levels of education, more 
engagement in the classroom. This crisis of this engagement is 
affecting teachers and students and drawing a bigger gap 
between ability to learn. Relooking at curriculum, you know, we 
are still teaching big clumps of information that may not be 
very useful.
    You know, I heard a statistic the other day that the 
average middle school student, 50 percent of the jobs that they 
will have when they are in their twenties or thirties do not 
even exist today. How do we look forward in time and adjust our 
teaching curriculums around the jobs that will be available and 
impacted by artificial intelligence, robotics, automation?
    I am afraid that we are spending all this money on 
education, we are not getting the results that we want. 
Teachers and students are disengaged and we are not teaching 
the skills that they are going to really need to be competitive 
and that we are going to need to be competitive in a global 
workforce.
    Chairman BRAT. Thank you very much. I invited the Education 
members. The members are just slammed right now with all the 
issues flying around here, but I knew this panel was going to 
coalesce around those issues and they have an interest, so we 
are going to start trying to work across Committees on some of 
this.
    Steve, closing remarks?
    Mr. MOORE. There is virtue and work. You know, work, work, 
work. You mentioned the word ``culture.'' I mean, there is a 
culture now that somehow working with your hands is a bad 
thing. It is amazing. If you are a mechanic, a pipefitter, a 
welder, you know, you can make $60,000, $70,000 a year, maybe 
you start your own business, you can make $100,000 a year. So 
this idea that everyone has to go to college I think is silly. 
And I think it is actually even counterproductive.
    I am friends with a guy named Bob Funk. He is the single, 
biggest employer in the United States. He runs a temporary 
employment agency. He puts 800,000 people a year in jobs. And 
he always tells me, Steve, I can find a job for anybody in 72 
hours as long as they do not have a degree in sociology, 
history, or political science. You know, it is kind of an 
interesting dynamic.
    And in terms of a compromise or something we could do, 
look, the point of my testimony is we cannot stay on the track 
we are on. We have got to do something differently.
    And you talked, Congressman Evans, about the 
infrastructure. We have been talking on our side about tax 
cuts. I mean, why not a deal where we have a big infrastructure 
program. Let us make sure that money is spent wisely, and then 
compare that with some tax reductions that could help spur 
growth. I cannot remember the last time we had a bipartisan 
bill in Congress. I would love to see that. I would love to see 
you two work together to come up with something. I mean, truly, 
it would be a real breakthrough.
    Chairman BRAT. Great. Dr. Barro?
    Mr. BARRO. Just one comment on the standard unemployment 
rate. It is actually surprising how good that indicator is for 
gauging the tightness of the labor market, sort of the nature 
of the business cycle situation, whether the market is sort of 
amenable to kind of standard aggregate demand management. And 
the standard unemployment rate being close to 4.5 percent is, I 
think, indicative that in that sense we are close to full 
employment and do not want to have that kind of demand 
stimulus.
    At the same time, I agree that labor force participation is 
surprisingly down, particularly in certain parts of the 
population, so I would emphasize that along with productivity 
changes in terms of what you can do to spur growth. So I also 
agree with that commentary.
    I certainly think education is the most important factor in 
terms of underlying productivity and throughout that 
influencing economic growth. That does not mean that I want a 
bigger role for the Federal Government in terms of promoting 
education. I really think typically it is better for public 
schooling to be at the local level, local and State level, and 
I would like to see a bigger private role in terms of K-12 
education.
    So I certainly think that education is very important, but 
that is not the same as saying I want the Federal Government to 
do more in that area. That is a conflict between those two 
conclusions.
    Chairman BRAT. Dwight, any closing?
    Mr. EVANS. I want to thank you, all three of you, four of 
you, Mr. Sherman left there, really for this conversation and 
dialogue. I think it has been, I know for me at least, 
personally, very helpful. And I thank the chairman for allowing 
the flexibility. I did not think that happened here. I come out 
of a legislature where we did not have this like 5 minutes. If 
you were getting on a roll, you got on the roll. And if the 
chairman was raising something, you raised a little question, I 
think that is the only way we are going to get some substantive 
discussion. So I thank you, Mr. Chairman.
    Chairman BRAT. Well, I think we will close on that nice set 
of remarks right there. You can hear the tone. There is a lot 
of chatter up here that we do not get along across the aisle 
and it is just baloney. We all work out in the gym in the 
mornings and like each other, so I feel some good stuff is 
coming.
    This is the best panel I have ever seen in Congress, just 
to congratulate you all. I listened to every word, which is 
very rare. And so this was tremendous. You all did a tremendous 
job preparing and shared your personalities along with it. And 
we had differences, but in a good spirit.
    So thank you all very much for sharing and that is it. 
Thank you.
    [Whereupon, at 11:20 a.m., the Subcommittee was adjourned.]
                            A P P E N D I X
                            
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                           
                            


                                 <all>
</pre></body></html>
